         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

The National Nuclear Security
Administration Contractors' Disability
Compensation and Return-to-Work
Programs




DOE/IG-0867                                 June 2012
                                  Department of Energy
                                    Washington, DC 20585
                                           June 18, 2012



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                  INFORMATION: Audit Report on "NNSA Contractors' Disability
                          Compensation and Return-to-Work Programs"

INTRODUCTION AND OBJECTIVE

The Department of Energy's National Nuclear Security Administration is responsible for the
Nation's nuclear weapons programs. NNSA relies on contractors to manage and operate the
seven sites that form its nuclear security enterprise, including three national laboratories. Under
state workers' compensation laws, these contractors provide a wide range of benefits to
employees, including those experiencing occupational disabilities. An occupational disability
occurs when a job-related injury or illness renders an employee unable to perform a job. The
contractors also have other disability plans, such as sick leave or salary continuation programs,
that provide benefits for non-occupational disabilities and generally supplement workers'
compensation. NNSA's contractors, whose costs are fully reimbursed, are required to promote
efficient and effective administrative functions. In Fiscal Year 2009, NNSA reimbursed its
contractors an estimated $112 million in workers' compensation, sick leave and disability plan
costs.

Studies have shown that employers can significantly reduce costs by actively managing worker
disability programs and by implementing effective return-to-work efforts. For example, the
Council of State Governments reported in Workers' Comp Trends Alert, Critical Information for
State Decision-Makers that employers can reduce the costs of lost days for occupational injuries
by 25 to 50 percent by implementing a return-to-work program. Because of the significant costs
involved and the potential for savings, we initiated this audit to determine whether NNSA had
ensured that contractor disability programs were managed effectively.

RESULTS OF AUDIT

NNSA had not ensured that its contractors managed their disability programs effectively,
efficiently and in the Department's best interest. In performing work at the Lawrence Livermore
National Laboratory, Los Alamos National Laboratory, Sandia National Laboratories, and Y-12
National Security Complex, we determined that:

   •   Livermore, Sandia and Y-12 had policies which effectively disincentivized employee
       return to work by supplementing workers' compensation with payments that gave the
       employees more net income when they were on disability than when they were working.
                                                2

       By following provisions in their contracts that limit supplemental payments, these
       contractors could eliminate the disincentives and save a combined average of at least
       $146,000 annually;

   •   Livermore obtained "guaranteed cost" workers' compensation insurance with no
       deductible even though such insurance is likely to be one of the most costly plans
       available. We estimated that Livermore could save between $645,000 and $1.3 million
       annually by selecting an alternative plan, such as "large deductible" and "self-insurance"
       plans or a plan readily available through the Department that bases premiums on costs
       actually incurred during the year;

   •   In purchasing its guaranteed cost workers' compensation insurance, Livermore incurred
       and charged NNSA $1.26 million in insurance broker compensation for FYs 2008
       through 2011. In September 2007, the Livermore Site Office Contracting Officer
       specifically advised Livermore in writing that broker fees would not be reimbursable.
       NNSA officials explained to us that they believe their ruling regarding the allowability of
       the broker fees was appropriate because Livermore could have avoided such fees by
       obtaining coverage directly, for example, by purchasing the plan available through the
       Department, without a broker. We believe, therefore, that the $1.26 million was an
       unreasonable expense and that NNSA should recoup these funds; and,

   •   Livermore, Los Alamos and Y-12 did not always implement best practices for managing
       disabilities covered by their paid sick leave programs. In many cases, the sites did not
       require physician certifications with return-to-work information for disabilities lasting
       five or more days and did not use disability duration guidelines, case managers, and case
       management software to manage sick leave claims. In contrast, Sandia implemented a
       disability management program with these features which contributed to its sick leave
       and short-term disability costs being significantly less than its sister NNSA laboratories.
       In this regard, we estimated that Livermore and Los Alamos could save approximately
       $1.2 million annually by implementing more effective disability management programs.
       Further, to its credit, shortly after we began our audit, Y-12 hired a return-to-work
       coordinator to manage disabilities.

Livermore and Los Alamos had not implemented some other best practices that have been
proven to reduce workers' compensation costs. Livermore, for example, did not use an approved
medical provider network to treat employees injured on the job, as allowed under California
regulations, even though an industry study established that such a practice could reduce workers'
compensation costs and improve medical treatment. Further, with regard to adoption of industry
best practices, Los Alamos continued to make workers' compensation payments for some union
employees who had been medically released for modified duty rather than offering work outside
the employees' normal duties. According to a union official, its agreement with Los Alamos did
not prevent assigning such employees to modified duty outside their craft.

Finally, NNSA did not implement cost savings opportunities that according to an outside
consultant could have saved between $1.2 million and $2.2 million annually. NNSA hired a
consultant to identify actions that contractors could take to improve the efficiency and
                                                 3

effectiveness of its contractor employee benefits programs. The consultant issued a report in
2009, and suggested a number of actions that NNSA could implement to improve oversight, and
reduce administrative and claims costs. The consultant, for example, suggested that self-insured
NNSA contractors could consolidate, or share, their claims administrators where feasible to
eliminate duplicate costs. However, such a consolidation was never pursued. We noted that
Livermore and Los Alamos had already established a precedent for shared services because the
sites currently share trustees and investment managers for their respective pension plans.

These issues occurred because NNSA, NNSA site offices, and contractor officials did not
exercise adequate oversight of, or provide resources necessary to improve, contractor disability
plans. For example, NNSA officials told us that they did not implement cost savings
opportunities that their consultant identified regarding workers' compensation because of limited
resources and their focus on other benefit areas, such as health plans. Finally, contractor officials
at Livermore, Sandia, and Y-12 were not aware that their workers' compensation and
supplemental payments practices were inconsistent with terms in their contracts with NNSA.

By increasing its oversight of contractor disability programs and implementing its consultant's
recommendations, NNSA could save more than $3.3 million annually as summarized in
Appendix 1. As noted, we also questioned $1.26 million in broker compensation costs that
Livermore incurred because the Livermore Site Office Contracting Officer had expressly
prohibited broker fees.

We found, however, that each of the contractors had certain meritorious policies and procedures
that we believe helped to keep their workers' compensation disability costs in check. For
example, with the exception of union craft employees at Los Alamos, each of the contractors had
a policy or practice of offering modified duty to most employees injured on the job. Finally, all
the contractors expressed a willingness to evaluate their programs in light of our findings and
recommendations. This was encouraging. Despite these actions, additional effort is necessary to
ensure that disability compensation and return-to-work programs are as effective and efficient as
possible. We made several recommendations designed to help NNSA in this regard.

We recognize that there may be a number of impediments to implementing change in how
contractors manage their employee disability plans. For example, self-insurance and some large
deductible plans require collateral and could involve making a deposit or purchasing a bond or
letter of credit. However, our concern, as presented in the report, is that contractors were not
aggressively exploring the options available for reducing disability costs.

MANAGEMENT REACTION

Management agreed with the findings and recommendations in the report. Management
indicated that site office officials had discussed the issues with the contractors and planned
actions to address each of the recommendations. Management's comments, including its
concerns and our response, are more thoroughly discussed in the body of the report and are
included in their entirety in Appendix 4.

Attachment
                                           4

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Acting Under Secretary for Science
    Under Secretary for Nuclear Security
    Chief of Staff
REPORT ON NNSA CONTRACTORS' DISABILITY COMPENSATION
AND RETURN-TO-WORK PROGRAMS


TABLE OF
CONTENTS

Disability Compensation and Return-to-Work Programs

Details of Finding .................................................................................................................... 1

Appendices

1. Table of Savings .............................................................................................................. 19

2. Objective, Scope and Methodology ................................................................................. 20

3. Related Reports ................................................................................................................ 22

4. Management Comments .................................................................................................. 24
NNSA CONTRACTORS' DISABILITY COMPENSATION AND RETURN-
TO-WORK PROGRAMS

DISABILITY         The National Nuclear Security Administration (NNSA) had not
COMPENSATION AND   ensured that its contractor sites always managed their disability
RETURN-TO-WORK     plans effectively and reduced costs by implementing return-to-
PROGRAMS           work programs. Specifically:

                       •   Lawrence Livermore National Laboratory (Livermore),
                           Sandia National Laboratories (Sandia), and Y-12 National
                           Security Complex (Y-12) provided disincentives to
                           employees to return to work by supplementing workers'
                           compensation with payments that gave employees more
                           net income when they were on disability payments than
                           when they were working;

                       •   Livermore purchased guaranteed cost workers'
                           compensation insurance with no deductible, which may
                           not be the most cost-effective plan available. According
                           to our analysis, there are less costly alternatives such as a
                           retrospective rating plan available through the Department
                           of Energy (Department) that bases premiums on costs
                           actually incurred during the year, large deductible plans,
                           or a self-insurance option;

                       •   In purchasing its guaranteed cost workers' compensation
                           insurance, Livermore incurred, charged and was
                           subsequently reimbursed approximately $1.26 million by
                           NNSA in potentially unallowable broker compensation for
                           Fiscal Years (FYs) 2008 through 2011. In September
                           2007, the Livermore Site Office Contracting Officer
                           advised Livermore that broker fees incurred in obtaining
                           workers' compensation coverage would be unallowable.
                           The Contracting Officer explained that Livermore could
                           have obtained coverage directly without the use of a
                           broker, including purchasing the plan available through
                           the Department, and therefore, fees for broker services
                           would not be allowable;

                       •   In most cases, Livermore, Los Alamos National
                           Laboratory (Los Alamos), and Y-12 did not implement
                           best practices such as using case managers, software to
                           track case management activities, and disability duration
                           guidelines to manage sick leave claims associated with
                           non-occupational disabilities; and,

                       •   Livermore and Los Alamos did not adopt some other best
                           practices that have been proven to reduce workers'
                           compensation costs. For example, Livermore did not

Page 1                                                             Details of Findings
                       utilize an approved network of health care providers to
                       treat employees with work injuries; and, Los Alamos paid
                       some employees to stay off work even though they had
                       been released for modified duty.

               We also noted that NNSA did not implement cost savings
               opportunities that its consultant reported could save between
               $1.2 million and $2.2 million annually.

Workers'       NNSA sites did not manage their workers' compensation
Compensation   programs effectively. Specifically, Livermore, Sandia, and Y-12
Supplement     supplemented workers' compensation with payments that gave
               employees more net pay when disabled than when working.
               Livermore permitted employees to supplement workers'
               compensation with sick leave up to 100 percent of gross pay.
               Sandia and Y-12 paid salary continuation at 100 percent of gross
               pay. Because workers' compensation is not subject to Federal
               payroll and income taxes, these payments actually resulted in an
               increase in net pay. For example:

                  •   A Livermore employee's bi-weekly net pay increased from
                      $2,042 to $2,666 during a disability because tax
                      withholdings decreased by $624; and,

                  •   Similarly, a Sandia employee's bi-weekly net pay increased
                      from $1,356 to $1,816 during a disability because tax and
                      other withholdings decreased by $460.

               In contrast, Los Alamos limited workers' compensation and other
               paid leave to 80 percent of gross pay, a practice that could result in
               the payments approximating the employees' net pay depending on
               applicable tax rates. Moreover, a consultant that NNSA hired to
               study contractor employee benefits stated that paying employees
               more than net pay when they are off work creates an incentive for
               them to stay off work.

               Although NNSA approved contractor pay plans providing
               supplements up to 100 percent of gross pay, the Livermore
               contract contained a provision limiting workers' compensation and
               supplemental payments to 80 percent of gross pay and the Sandia
               and Y-12 contracts limited them to net pay. Livermore was
               initially concerned that California law might prohibit limits on the
               use of sick leave. However, an attorney at Livermore explained
               that the California law did not require employers to provide sick
               leave and that if an employer chose to provide sick leave, then the
               law would likely not prohibit limiting it, as a supplement to
               workers' compensation, to net pay or 80 percent of gross pay. We


Page 2                                                          Details of Findings
                                    noted that several large employers in California have policies
                                    limiting workers' compensation and supplemental payments to
                                    amounts less than gross pay.

                                    Y-12 previously paid workers' compensation and a supplemental
                                    short-term disability benefit to employees disabled by work
                                    injuries, a practice that could ultimately result in employees
                                    receiving more pay than they were entitled. In 2010, Y-12
                                    changed its process and began making salary continuation
                                    payments and withheld payroll and income taxes from the full
                                    amount so that employees received the same net pay as before the
                                    disability. However, after we discussed concerns with contractor
                                    officials about full withholding, Y-12 obtained an outside legal
                                    opinion verifying that the amount of salary continuation that
                                    replaced workers' compensation was not taxable. Therefore,
                                    employees could be entitled to a refund or credit of excess tax
                                    withholdings and ultimately receive more than net pay.
                                    Livermore, Sandia and Y-12 officials told us that they would
                                    review their pay practices and develop corrective actions as
                                    appropriate.

                                    Livermore, Sandia and Y-12 officials estimated that they paid a
                                    total of $732,995 to supplement workers' compensation during FYs
                                    2008 through 2010. We estimated that about 60 percent1 of these
                                    payments, or $439,7972, exceeded the limits in their contracts. The
                                    costs paid by the Department could be even greater because other
                                    sites also supplement workers' compensation payments.
                                    Specifically, we performed an informal survey and found that an
                                    additional three NNSA contractors had similar pay practices to
                                    those at Livermore, Sandia and Y-12.

RECOMMENDATION                      We recommend that NNSA Contracting Officers direct
                                    Contractors to:

                                          1. Review their sick leave and disability pay practices to
                                             verify that they comply with all applicable contract terms.

MANAGEMENT                          NNSA agreed that contractors should review their pay practices for
REACTION                            contract compliance and stated that NNSA's Contractor Human



1
  Workers' compensation pays up to 67 percent of salary. Livermore, Sandia and Y-12 pay up to an additional
33 percent of salary to reach 100 percent. Los Alamos pays only an additional 13 percent to reach 80 percent of
salary. Therefore, 60 percent of what Livermore, Sandia and Y-12 pay is in excess of what Los Alamos pays as
follows: (33 – 13) / 33 = 60 percent.
2
    The annual average over 3 years is: $439,797/3 = $146,599


Page 3                                                                                     Details of Findings
                                     Resources will assist in implementing the recommendation.
                                     However, in technical comments to NNSA, Livermore stated that
                                     its contract limited injury and extended sick leave but not accrued
                                     sick leave. Thus, Livermore asserted that the use of accrued sick
                                     leave to supplement workers' compensation to 100 percent of
                                     regular pay was permitted.

AUDITOR COMMENTS                     NNSA's comments are responsive to our recommendation.
                                     Regarding Livermore's technical comments, we noted that the
                                     Livermore contract states that the total amount of all payments
                                     shall not exceed 80 percent of the employee's regular pay. We
                                     interpreted "all payments" to include injury leave, accrued sick
                                     leave and any other paid leave. Los Alamos has the same
                                     provision in its contract and it applies the 80 percent limit to injury
                                     time benefits, sick leave and vacation pay. Overall, NNSA's plans
                                     to assist contractors in reviewing their pay practices should clarify
                                     the interpretation of "injury leave" under the contract.

Procurement of                       Due to contract transition time constraints, Livermore initially
Insurance Coverage                   planned to obtain a large deductible workers' compensation
                                     insurance policy; however, effective October 2007, it obtained
                                     guaranteed cost insurance with no deductible based on its
                                     conclusion that it would cost less than a large deductible plan.
                                     Although the Livermore Site Office Contracting Officer approved
                                     guaranteed cost insurance with no deductible, it may not be the
                                     most cost effective workers' compensation insurance available. As
                                     noted in a 2009 report, NNSA's consultant found that Livermore
                                     could reduce workers' compensation costs by replacing its plan
                                     with a large deductible plan, a retrospective rating plan3, or self-
                                     insurance. Additionally, our review identified recent industry and
                                     Government studies supporting that large deductible insurance and
                                     self-insurance options offer potential cost savings. The Journal of
                                     Risk and Insurance published a study in 1999, entitled Workers'
                                     Compensation Deductibles and Employers' Costs, that showed a
                                     large deductible plan instead of full coverage can reduce high-
                                     dollar claim costs 12 percent in the first year and indemnity claims
                                     39.8 percent by the third year. The Department of Defense's
                                     Office of the Deputy Under Secretary of Defense Acquisition and
                                     Technology issued a report in 2009 entitled, Report to Congress:
                                     Acquisition Strategy for Defense Base Act Insurance, stating that
                                     its contractors could save 17 to 63 percent of their costs under a
                                     self-insurance program versus acquiring full coverage. In addition,
                                     we question the cost effectiveness of Livermore's guaranteed cost


3
 Using a simplified definition, a retrospective rating plan (retro) is a pricing plan available in which the workers'
compensation premium is developed, in its final form, by the losses sustained during the policy period.


Page 4                                                                                         Details of Findings
         insurance with no deductible over other available options based on
         our own analysis. For example, Livermore estimated that a large
         deductible insurance plan for FY 2008 would have cost about
         $5.3 million as opposed to the $3.6 million it paid for the
         guaranteed cost plan. However, we found that Livermore's
         $5.3 million estimate for the large deductible plan was likely
         overstated because it did not fully consider factors that would have
         reduced the plan's net cost. Specifically, Livermore's estimate for
         a large deductible plan included:

             •   A $2.1 million trust deposit that would ultimately be
                 refunded, or would serve as a credit against future losses;

             •   $300,000 of potentially unallowable broker compensation;
                 and,

             •   $1.9 million in losses paid through August 2011 that
                 Livermore did not reduce to its 2008 present value.
                 According to Livermore officials, the present value of
                 losses paid over time is roughly 86 percent of the losses,
                 which would be approximately $1.6 million rather than
                 $1.9 million.

         Adjusting Livermore's estimate for a large deductible insurance
         plan to remove the deposit and broker compensation and to reduce
         the losses to present value would result in a net cost of $2.7 million
         or $952,470 less than the $3.6 million that Livermore paid for its
         guaranteed cost with no deductible plan. Furthermore, under the
         Department's retrospective rating plan, using Livermore's $1.9
         million estimate for losses plus a basic premium rate, taxes and a
         claims handling fee, we estimated the net cost would be roughly
         $1.3 million less than the $3.6 million that Livermore paid.
         Finally, we estimated that with a self-insured plan, Livermore
         could have avoided broker fees, insurance company profits and
         administration costs, as well as reduced premium-based taxes and
         surcharges, resulting in an average cost savings of at least
         $645,354 annually.

         We recognize that in each case, there could still be additional
         losses, which would reduce the potential savings. We also
         recognize that self-insurance and some large deductible plans have
         requirements for collateral that could involve bond or letter of
         credit fees, or a deposit and thus a lost investment opportunity.
         However, these costs, in our view, would be only a fraction of the
         potential savings and could be minimized or eliminated by
         depositing cash in an interest-bearing account or by depositing


Page 5                                                   Details of Findings
                      interest-bearing securities in trust. Moreover, officials at the
                      California Office of Self-Insurance Plans and the California
                      Department of Insurance stated that the collateral requirements for
                      self-insurance decline substantially after three years and that some
                      insurance companies for large deductible plans will waive their
                      collateral requirements. Further, the Livermore Site Office
                      Contracting Officer stated that these types of start-up costs could
                      be allowable.

                      In an August 2007 letter to the Contracting Officer, Livermore
                      stated that it planned to seek approval for self-insurance as soon as
                      allowed under the law. However, as of March 2012, Livermore
                      had not applied to self-insure. In fact, Livermore renewed its
                      guaranteed cost insurance policy for FY 2012 at a cost of
                      $4.1 million.

RECOMMENDATION        We recommend that the Contracting Officer, Livermore Site
                      Office, direct Livermore to:

                          2. Obtain an independent analysis of alternative workers'
                             compensation coverage plans that may be more cost
                             effective than the present plan.

MANAGEMENT            NNSA agreed that the Livermore Site Office Contracting
REACTION              Officer should direct Livermore to explore more cost effective
                      workers' compensation coverage. To its credit, Livermore
                      informed us that it initiated a cost study to evaluate its workers'
                      compensation insurance options.

AUDITOR COMMENTS      NNSA's comments are responsive to our recommendation.

Broker Compensation   We determined that Livermore incurred, charged and was
                      reimbursed by NNSA for $1.26 million in potentially unallowable
                      broker compensation. In September 2007, the Livermore Site
                      Office Contracting Officer approved Livermore's procurement of
                      workers' compensation insurance, but advised in writing that any
                      broker fees it incurred in obtaining the coverage would not be
                      reimbursable. Nevertheless, Livermore used a broker to acquire its
                      workers' compensation insurance. Accounting records showed that
                      the broker billed Livermore for the cost of the coverage, including
                      the broker compensation, and that Livermore paid the broker. In
                      its initial disclosures to Livermore, the broker showed a
                      commission of $300,000. However, in a subsequent disclosure,
                      the broker showed $330,000 in fees and stated that there were no
                      commissions. The disclosure also showed that the broker would
                      receive $330,000 in fees regardless of the workers' compensation



Page 6                                                                 Details of Findings
                   policy that Livermore selected. Finally, except for a one-time
                   increase of $30,000, we found that the amounts the broker received
                   were the same each year for FYs 2008 to 2011, even though the
                   cost of Livermore's insurance fluctuated annually. Livermore
                   asserted that the payments were commissions and, therefore were
                   not the type of fees that the Contracting Officer had deemed to be
                   unallowable. Livermore also stated that the Contracting Officer
                   subsequently ratified the payments as allowable commissions.

                   However, the Livermore Site Office Contracting Officer told us
                   that the intent was to disallow any costs for broker services that
                   would ultimately be charged to NNSA, and therefore, the amounts
                   were unallowable whether called fees or commissions. In fact, the
                   former NNSA Procurement Executive indicated directing the
                   Contracting Officer not to allow broker fees because Livermore
                   could obtain coverage without using a broker. Further, the
                   Contracting Officer also told us that the payments had not been
                   ratified by the Government.

                   Finally, the Livermore Site Office Contracting Officer told us that
                   if Livermore did not understand or agree with the prohibition on
                   broker fees, then Livermore had an obligation to notify the
                   Government in writing. Instead, Livermore paid its broker a total
                   of $1.26 million and charged NNSA this amount as part of its total
                   insurance cost. Therefore, we question whether NNSA should
                   have reimbursed Livermore for payments to the broker regardless
                   of whether those payments were labeled fees or commissions.

RECOMMENDATION     We recommend that the Contracting Officer, Livermore Site
                   Office:

                       3. Determine the allowability of the amounts paid to the
                          workers' compensation insurance broker and recover all
                          unallowable costs.

MANAGEMENT         NNSA agreed that the Contracting Officer should determine the
REACTION           allowability of the amounts paid to the broker. In technical
                   comments to NNSA, Livermore stated that it had to use a broker
                   because California law requires anyone who sells insurance to
                   have a broker's license.

AUDITOR COMMENTS   NNSA's comments are responsive to our recommendation. We
                   agree that California law requires a seller of insurance to have a
                   broker-agent license. However, the law does not require the
                   purchaser to pay broker compensation. As did the Contracting
                   Officer in this case, we determined that Livermore had options to



Page 7                                                            Details of Findings
                        avoid paying a broker. NNSA's consultant and the California
                        Office of Self-Insurance Plans told us that some insurance
                        companies in California would sell a policy directly without a
                        broker. In fact, Livermore's insurer told us that it would consider
                        selling directly and could do so by having one of its employees
                        licensed as a broker-agent. Also, the Contracting Officer told us
                        that Livermore could issue a request for proposal to purchase
                        insurance directly. Further, as previously discussed, Livermore
                        could have been self-insured or purchased the Department's
                        retrospective rating plan without using a broker.

Non-Occupational        Livermore, Los Alamos and Y-12 did not always manage non-
Disability Management   occupational disabilities effectively. Non-occupational disabilities
                        include employees on paid sick leave at Livermore and Los
                        Alamos or short term disability leave at Y-12 due to a non-work
                        related injury or illness. While not specific to disability
                        management, the Livermore, Los Alamos, Sandia and Y-12
                        contracts did incorporate acquisition regulations requiring the
                        contractors to maintain effective systems of management controls
                        for administrative functions and to promote efficient and effective
                        operations.

                        For the most part, Livermore and Los Alamos did not have
                        programs for managing the non-occupational disabilities of
                        employees on paid sick leave. Although Y-12 had established a
                        program, it had not fully implemented its policies and procedures
                        for managing non-occupational disabilities. In contrast, Sandia
                        had a non-occupational disability management program that its
                        officials believed reduced its sick leave and short-term disability
                        costs. For example, according to a Sandia Site Office official,
                        Sandia implemented a non-occupational disability management
                        program similar to its parent company's (Lockheed-Martin) best
                        practices that included the following features:

                            • Requirement for employees to submit physician
                              certifications of disability with return-to-work information
                              for disabilities lasting five or more days;

                            • Use of specialized software to track disabilities;

                            • Use of official disability guidelines to assess lengths of
                              disabilities;

                            • Case manager communications with employees and their
                              outside physicians; and,




Page 8                                                                  Details of Findings
             • On-site medical examinations to validate lengths of
               disabilities.

         Livermore stated that it had a long-standing return-to-work
         program and Los Alamos informed us that it had a system for
         managing non-occupational disabilities. However, our review
         confirmed that in most cases, Livermore and Los Alamos did not
         implement any of the above measures for employees when on paid
         sick leave. For example, officials at Livermore responsible for
         sick leave and return-to-work told us that they did not have a
         policy requiring physician certifications to support sick leave.
         Further, 4 of the 10 supervisors that we interviewed erroneously
         told us that they could not request physician certifications due to
         privacy concerns or because they thought another department was
         responsible for requesting them. In fact, we tested 52 sick leave
         claims lasting 5 or more days and determined that Livermore had
         received physician certifications for only 12. Further, managers at
         Los Alamos verified that its program for managing non-
         occupational disabilities was limited to employees who qualified
         under the Family and Medical Leave Act of 1993 (FMLA) and that
         87 percent of the employees who took more than 5 days of paid
         sick leave did not qualify under FMLA. These managers verified
         that for the 13 percent of employees who qualified under FMLA,
         the Los Alamos program did not involve tracking case
         management activities, using disability duration guidelines,
         communications with outside physicians, or on-site medical
         examinations. Y-12 also did not implement the above measures,
         except that it had a procedure requiring a physician certification
         with return-to-work information for disabilities lasting more than
         three days. However, the physician certifications sometimes did
         not specify that the employee was unable to work and lacked
         return-to-work information, such as light-duty restrictions and an
         expected return to light-duty date.

         Livermore, Los Alamos and Y-12 had combined sick leave and
         short-term disability costs per thousand dollars of payroll that were
         significantly higher than those of Sandia. For example, Sandia's
         costs in 2009 were $25.60 and Los Alamos' costs were $33.96, as
         shown in the table below:




Page 9                                                   Details of Findings
                                                   Sick Leave and Short-Term Disability Costs

                                                           Total Costs4        Payroll          Unit Cost5
                                            Los Alamos     $30,712,876         $904,358,385     $33.96
                                            Livermore      $21,981,881         $671,228,798     $32.75
                                            Y-12           $12,412,950         $360,044,779     $34.48
                                            Sandia         $22,802,281         $890,558,051     $25.60

                                         We recognize that some of the cost differences could be
                                         attributable to factors other than disability management, such as
                                         the quality of disability prevention programs and investments in
                                         on-site medical services. Therefore, these figures are not an
                                         absolute measure of the effectiveness of Sandia's disability
                                         management program, but rather an indication of the potential
                                         opportunities for cost savings at the other sites.

                                              Non-Occupational Disability Requirement and Incentives

                                         NNSA had neither required contractors to develop nor had it
                                         provided incentives for contractors to establish non-occupational
                                         disability management programs. Current contracts required
                                         contractors to develop safety and health programs that protect
                                         employees and prevent injuries and provided contract incentives
                                         geared towards measuring the effectiveness of such programs.
                                         However, NNSA had neither specifically required nor incentivized
                                         contractors to establish programs to manage non-occupational
                                         disabilities. Therefore, Livermore and Los Alamos officials told
                                         us that they focused their efforts on occupational injuries affecting
                                         occupational safety reporting. Shortly after the start of our audit,
                                         Y-12 hired a manager to oversee non-occupational disability
                                         management.

                                         We estimated that Livermore could potentially realize annual net
                                         savings of $445,835 and Los Alamos a net savings of $718,242, by
                                         implementing effective disability management programs.
                                         Approximately 30 percent of Sandia's sick leave and short-term
                                         disability costs were for disabilities lasting five or more days and
                                         thus qualified for disability management under Sandia's program.
                                         In 2006, the Journal of Occupational & Environmental Medicine
                                         published a study entitled Impact of a Disability Management
                                         Program on Employee Productivity in a Petrochemical Company
                                         showing that managing non-occupational disabilities, with a
                                         program strikingly similar to Sandia's, decreased absences at a

4
    At Livermore and Los Alamos, sick leave represented about 98 percent of total costs.
5
    Unit Cost is per $1000 of payroll.


Page 10                                                                                    Details of Findings
                   large company between 10.4 and 18.2 percent. Therefore, to
                   estimate the potential cost savings at Livermore and Los Alamos,
                   we multiplied 30 percent of their sick leave and short-term
                   disability costs by 10.4 percent and then subtracted the salary and
                   benefits costs of two disability case managers.

RECOMMENDATION     We recommend that NNSA's Procurement Executive:

                       4. Develop requirements and performance incentives for
                          contractors to control non-occupational disability costs.

MANAGEMENT         NNSA agreed with our recommendation and stated that NNSA's
REACTION           Contractor Human Resources would assist the Procurement
                   Executive with the development of a performance metric that
                   would drive contractors to modify programs to be more like
                   industry. Livermore provided technical comments to NNSA
                   stating that its return-to-work program incorporated the best
                   practices noted above. Livermore acknowledged that its program
                   focused primarily on occupational injuries, but stated that the
                   program was available to management to assist with non-
                   occupational cases.

AUDITOR COMMENTS   NNSA's comments are responsive to our recommendation.
                   We do not dispute that Livermore, Los Alamos, Sandia and Y-12
                   employ some of the best practices with respect to occupational
                   disabilities. In fact, each of the contractors had policies and
                   procedures that we believe reduced workers' compensation
                   disability costs. For example, with minor exceptions, each of the
                   contractors had a policy or practice of offering modified duty to
                   most employees injured on the job. However, our findings and
                   recommendation are focused on managing sick leave for non-
                   occupational disabilities, and we found that Livermore did not
                   implement the best practices noted above in most of these cases.

Cost Reduction     Livermore and Los Alamos did not adopt best practices that have
Best Practices     been proven to be effective in reducing workers' compensation
                   costs in various corporate settings. For example, Livermore did
                   not utilize a medical provider network, which is an entity or group
                   of health care providers set up by an insurer or self-insured
                   employer and approved by California's Division of Workers'
                   Compensation to treat workers injured on the job. A medical
                   provider network can reduce costs by giving an employer
                   substantial control over which providers are in the network and
                   who workers see for care for the life of a claim. Additionally, Los
                   Alamos paid some union employees to stay off work even though
                   they had been released to modified duty.



Page 11                                                           Details of Findings
                              Medical Provider Selection

          Livermore had not adopted a best practice for selecting the medical
          provider for work injuries that has been demonstrated to, among
          other things, reduce workers' compensation costs. Specifically,
          Livermore did not always use a medical provider network to treat
          injured employees who had not pre-designated a provider. Instead,
          Livermore allowed employees to select the provider. Although
          Livermore allowed its employees to select their own medical
          provider, Livermore officials told us that most injured employees
          received treatment at Livermore's on-site clinic and that everyone
          who received treatment outside the clinic chose a provider in the
          insurer's network. However, in 4 of the 10 claims that we
          reviewed, the employees received treatment from providers outside
          the network.

          In 2005, the Public Policy Institute of California (PPI) and the
          Workers' Compensation Research Institute (WCRI) jointly
          published a study entitled The Impact of Provider Choice on
          Workers' Compensation Costs and Outcomes showing that when
          workers selected the medical provider, return-to-work outcomes
          were poorer, compensation payments were 8 to 15 percent higher,
          and medical payments were 10 to 21 percent higher. The study
          determined that employers and their insurers are better positioned
          than employees to select good-quality, lower cost providers
          because they generally have more experience and superior
          information about the practices of providers. As a potential best
          practice, Department guidance directs contractors to review
          medical cost containment programs, such as managed-care
          networks, where allowed by state law. Los Alamos and Sandia
          selected their on-site medical clinics as the provider under New
          Mexico law and referred injured workers to specialists as
          appropriate. Y-12 provided employees with a choice of three
          physicians that it had designated under Tennessee law.

          In California, an insurer or self-insured employer may establish a
          medical provider network to treat work injuries. If an employer
          uses a medical provider network, then employees receive treatment
          from network providers for the life of a claim unless they pre-
          designated a provider. Employees may only pre-designate a
          provider that treated them in the past and they must do so in
          writing before an injury. Livermore's insurer maintained a medical
          provider network that was approved by the California Division of
          Workers' Compensation. The network permitted employees to
          choose from an extensive directory of qualified medical doctors,



Page 12                                                 Details of Findings
          specialists and other providers experienced in treating work
          injuries. However, Livermore did not specifically require
          employees to use members of the network.

          By allowing employees to select their own medical providers,
          Livermore could incur unnecessary claim costs. In one claim, for
          example, the employee initially received treatment from
          Livermore's on-site clinic and a board certified orthopedic surgeon
          that was a member of Livermore's insurance company's approved
          medical provider network. However, after both physicians
          released the employee to work, the employee stopped work,
          consulted an attorney, and changed the treating physician to an
          attorney-recommend chiropractor that was not in the network. The
          insurance company authorized the change because Livermore did
          not require employees to use the insurer's network of medical
          providers. The chiropractor declared total disability, creating a
          conflict in the medical evidence and potential liability for up to
          $99,633 of disability compensation. The insurer finally denied the
          claim based on a report from an independent medical evaluator,
          but paid at least $6,710 for a medical-legal evaluation, attorney
          fees and other expenses. If Livermore had used the medical
          provider network, these liabilities likely would not have existed
          because the California Workers' Compensation Appeals Board has
          held that reports from a provider outside the network are not
          admissible in situations where employees are required to use the
          employer's/insurer's network.

                      Medical Provider Selection Policy Support

          The Livermore Site Office had not ensured that Livermore based
          its medical provider selection policy on cost effectiveness and
          overall benefits to the employees. Specifically, the Livermore Site
          Office did not ensure that Livermore performed a cost analysis of
          the alternatives for selecting medical providers. Additionally,
          Livermore based its policy to allow employees to select their own
          providers based on concerns that have not been demonstrated at
          other sites. Livermore officials, for example, told us that they were
          concerned that some employees would stop cooperating with
          medical treatment and return-to-work efforts if they could not
          choose their own provider. Officials at Los Alamos, Sandia and
          Y-12 stated that selecting their on-site clinics as the provider or
          providing employees a list of selected providers rarely or never led
          to employees not cooperating with medical treatment and return-
          to-work efforts. Moreover, the sites that relied on on-site clinics or
          selected providers reported that their practices resulted in better
          medical treatment and lower costs.



Page 13                                                   Details of Findings
                                     Overall, Livermore's practice likely increased costs by as much as
                                     $142,932 annually. Using Livermore's payments history, we
                                     estimated the net present value of its compensation and medical
                                     losses at $690,690 and $1,009,470, respectively. According to the
                                     previously mentioned joint study by the PPI and the WCRI,
                                     Livermore's practice likely increased compensation losses at least
                                     8 percent and medical losses at least 10 percent. Therefore,
                                     Livermore's practice likely increased annual compensation and
                                     medical costs by $51,162 and $91,770.6

RECOMMENDATION                       We recommend that the Contracting Officer, Livermore Site
                                     Office:

                                           5. Direct Livermore to analyze the options for selecting the
                                              medical provider, and pursuant to that analysis, adopt a
                                              policy that reflects best practices.

MANAGEMENT                           NNSA agreed with our recommendation. NNSA stated that
REACTION                             Livermore was asked to analyze the options for selecting the
                                     medical provider and that Livermore would present a business case
                                     to support the approach it selects. In technical comments to
                                     NNSA, Livermore stated that a network for its site would have to
                                     cover an area too large to result in savings.

AUDITOR COMMENTS                     NNSA's comments are responsive to our recommendation.
                                     Regarding Livermore's assertion about the viability of a network, a
                                     risk manager for a large university with multiple sites told us that a
                                     regional network servicing the Livermore site could be very
                                     beneficial. Moreover, the potential savings that we reported are
                                     consistent with another large insurance company's 2009-2010
                                     study indicating that implementing a network reduced the medical
                                     severity of claims up to 15 percent and resulted in returns to work
                                     up to 10 percent faster. Finally, Livermore is not limited to its
                                     insurer's currently provided network. Livermore's insurer has
                                     established networks for other employers; other insurers offer
                                     different networks; and, under a self-insurance plan, Livermore
                                     could potentially establish its own network.

Modified Duty                        Los Alamos had not effectively managed return-to-work policies.
                                     In particular, Los Alamos had not ensured that union employees on
                                     workers' compensation temporary disability, who were capable of
                                     performing modified duties, returned to work. When modified
                                     duty was not available within a union craft area, Los Alamos did

6
    Increase in Compensation $690,690 – ($690,690 / 1.08) = $51,162
    Increase in Medical Services $1,009,470 – ($1,009,470 / 1.10) = $91,770


Page 14                                                                              Details of Findings
                 not perform a search for modified duty elsewhere on site for the
                 union employees. From 2008 through 2010, Los Alamos paid
                 union employees a total of $15,392, or an average of $5,131
                 annually, to remain on temporary disability even though they were
                 capable of performing modified duty according to their treating
                 physicians. Los Alamos' policy stated that when economically and
                 programmatically feasible, Los Alamos would make work
                 adjustments to enable employees to return to work as soon as
                 possible. According to a Los Alamos official, modified duty is
                 offered to non-union employees and each manager is responsible
                 for identifying modified work. Other NNSA sites have similar
                 policies that could be viewed as a potential best practice. For
                 example, Sandia had a policy requiring site-wide searches for
                 modified duty when work was not available in an employee's own
                 department. Moreover, Livermore had a policy requiring
                 departments to accommodate temporary restrictions in all work
                 injury cases.

                                     Return-to-Work Oversight

                 Los Alamos Site Office officials were not aware that union
                 employees were not considered for modified duty. A Los Alamos
                 manager stated that it was not industry practice to assign a union
                 employee to work outside his or her craft and that the unions
                 would object if the employee were assigned to another craft.
                 However, the manager and a business representative for one of the
                 unions confirmed that union agreements did not prevent Los
                 Alamos from assigning union employees to modified duty outside
                 the crafts. In fact, the business representative told us that Los
                 Alamos had previously assigned union employees to modified duty
                 as security escorts and that the unions had not objected. In
                 discussing our concerns with management, Los Alamos Site Office
                 officials agreed that it was a good practice to find modified duty
                 for union employees when possible.

                 By offering modified duty for union employees, Los Alamos could
                 potentially save the Government $5,131 annually in workers'
                 compensation costs. In addition to potential cost savings, Los
                 Alamos could increase employee morale; and, as stated in its own
                 policy, it is in the best interest of Los Alamos to return employees
                 to productive employment as soon as the employee is medically
                 able.

RECOMMENDATION   We recommend that the Contracting Officer, Los Alamos Site
                 Office:




Page 15                                                         Details of Findings
                            6. Direct Los Alamos to adopt a policy of performing a site-
                               wide search for modified duty when not available in an
                               employee's own department and bargain with the unions,
                               if necessary, to implement the policy for union employees.

MANAGEMENT              NNSA agreed with our recommendation.
REACTION

AUDITOR COMMENTS        NNSA's comments are responsive to our recommendation.

Additional Cost         NNSA did not implement cost savings opportunities that its
Savings Opportunities   consultant reported could save $1.2 million to $2.2 million
                        annually. In April 2009, an NNSA consultant reported that among
                        other opportunities NNSA could reduce contractors' post-claim
                        workers' compensation costs by:

                             •   Adopting independent claim audit standards;

                             •   Consolidating self-insured sites' third-party claims
                                 administrators where feasible;

                             •   Accelerating legacy claim closures; and,

                             •   Negotiating claim-handling charges on a fee per claim
                                 basis rather than as a percentage of losses.

                        The consultant's report suggested that NNSA's implementation of
                        these opportunities could improve oversight, reduce administrative
                        costs and reduce claim expenses. For example, the Livermore Site
                        Office's Contracting Officer told us that Livermore and Los
                        Alamos have shared trustees and investment managers for their
                        pension plans to reduce administrative costs. As suggested by the
                        report, if the two sites consolidated or shared their claims
                        administrator, costs could be reduced.

                        NNSA officials confirmed that they have not developed any
                        policies or procedures to implement the consultant's
                        recommendations as of April 2011. NNSA expressed concerns
                        that the consultant's recommendation to consolidate claims
                        administrators was not feasible because all the contractors would
                        need to be self-insured. However, the consultant did not
                        recommend mandating self-insurance, but rather consolidating
                        claims administrators at self-insured sites where feasible and
                        communicating the potential savings to other sites. We noted that
                        Los Alamos, Sandia and Y-12 were self-insured and that Los
                        Alamos and Sandia were already using the same claims


Page 16                                                                Details of Findings
                 administrator. NNSA officials also expressed concerns that
                 contractors might have to hire additional staff for self-insurance.
                 However, a third-party claims administrator would handle most of
                 the same functions that an insurance company handles; and, in
                 Livermore's case it already has a qualified risk manager and staff
                 who are capable of managing a self-insurance plan.

                             Implementation of Cost Savings Measures

                 NNSA officials told us that they did not have adequate resources to
                 implement all the consultant's suggested cost savings measures, as
                 the consultant report reviewed several contractor benefits,
                 including health benefits and workers' compensation. NNSA
                 decided to focus on overseeing contractor health plans, rather than
                 the workers' compensation opportunities for improvement, because
                 it believed the health plans had greater potential for cost savings.
                 As a result, NNSA did not take any actions on the proposed
                 opportunities related to disabilities, or send the consultant's report
                 to NNSA Site Offices and contractors. Although NNSA and its
                 Site Office officials did not commit to implementing any suggested
                 opportunities at this time, they agreed that the opportunities for
                 cost-savings and implementing best practices were always worth
                 consideration. Furthermore, NNSA stated that it could present for
                 consideration the potential savings opportunities to the contractors
                 or the Business Management Advisory Council (BMAC), which
                 has the authority to oversee cost savings initiatives in contractor
                 human resources.

                 NNSA could potentially save $1.2 to $2.2 million annually on
                 contractors' workers' compensation costs by implementing the
                 consultant opportunities for savings. As the Department faces
                 continuous budget cuts, potential cost savings at each site could
                 benefit the Department overall.

RECOMMENDATION   We recommend that NNSA's Procurement Executive:

                      7. Present the potential cost savings opportunities from the
                         consultant to the contractors as well as senior Department
                         and NNSA management, including the BMAC, and
                         monitor implementation efforts.

MANAGEMENT       NNSA agreed with the recommendation, but noted that it had not
REACTION         validated the consultant's cost savings opportunities. Regardless,
                 NNSA stated that the opportunities identified would be reviewed
                 again for possible action.




Page 17                                                          Details of Findings
AUDITOR COMMENTS      NNSA's comments are responsive to our recommendation.

Cost Savings Impact   NNSA could save more than $3.3 million annually in contractor
                      employee disability costs by implementing the recommendations
                      made in our report and the recommendations of its consultant.
                      Accordingly, we believe it is vitally important that matters
                      discussed in this report receive senior NNSA management
                      attention. Appendix 1 summarizes the potential annual cost
                      savings of our findings. Management's comments are included in
                      their entirety in Appendix 4.




Page 18                                                           Details of Findings
Appendix 1

                                   TABLE OF SAVINGS


The National Nuclear Security Administration could save more than $3.3 million annually if it
increases its oversight of contractor disability programs and implements its consultant's
recommendations. The following table summarizes the potential annual cost savings associated
with our findings:

                         Finding                                    Annual Savings
Workers' Compensation Supplements                            $ 146,599
Coverage Procurement                                         $ 645,354 - $1,293,063
Non-Occupational Disability Management – Lawrence            $ 445,835
Livermore National Laboratory
Non-Occupational Disability Management – Los Alamos          $ 718,242
National Laboratory
Medical Provider Selection                                   $ 142,932
Modified Duty                                                $    5,131
Consulting Study                                             $1,200,000 – $2,200,000
Total Annual Savings                                         $3,304,093 – $4,951,802




Page 19                                                                     Table of Savings
Appendix 2

OBJECTIVE     The objective of the audit was to determine whether National
              Nuclear Security Administration (NNSA) had ensured that
              contractor disability programs were managed effectively.

SCOPE         We conducted the audit from September 2010 to May 2012, at
              Lawrence Livermore National Laboratory (Livermore) in
              Livermore, CA; Los Alamos National Laboratory (Los Alamos) in
              Los Alamos, NM; Sandia National Laboratories (Sandia) in
              Albuquerque, NM; and, Y-12 National Security Complex (Y-12)
              in Oak Ridge, TN.

METHODOLOGY   To accomplish the audit objective, we:

                  •   Interviewed officials from Livermore, Los Alamos,
                      Sandia, Y-12, NNSA, the State of California, and
                      consulting, brokerage and insurance companies;

                  •   Reviewed laws, regulations, policies, procedures,
                      Department of Energy (Department) contracts,
                      Department guidance, insurance policies, prior audit and
                      consultant reports, and best practices studies related to the
                      audit objective;

                  •   Judgmentally selected samples of sick leave, short-term
                      disability and workers' compensation claims; and,

                  •   Tested claims for compliance with laws, regulations,
                      policies, and procedures, as well as consistency with
                      established best practices.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. Accordingly, the audit
              included reviews of Department and regulatory policies and
              procedures related to the Department's management of return-to-
              work programs. We also assessed the Department's
              implementation of the GPRA Modernization Act of 2010 and
              concluded that the Department had not established performance
              measures related to return-to-work programs. Because our review
              was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit.



Page 20                                    Objective, Scope and Methodology
Appendix 2 (continued)

                    Finally, We conducted an assessment of computer-processed data
                    relevant to our audit objective and found it to be sufficiently
                    reliable.

                    An exit conference was held with Department officials and
                    contractor management on May 14, 2012.




Page 21                                        Objective, Scope and Methodology
Appendix 3

                                    RELATED REPORTS

Office of Inspector General Reports

    •   Inspection Report on Management of the Workers' Compensation Program at
        Department of Energy Headquarters (DOE/IG-0769, June 2007). The inspection
        revealed that the Department of Energy (Department) had not maintained adequate
        records and had not adequately monitored long-term workers' compensation cases.
        There were no files for 4 of 19 cases reviewed and the employees in two long-term cases
        should have returned to work. The Department did not have written policies or
        procedures for managing open cases and lacked performance measures to assess its
        management of the workers' compensation program. Management concurred with the
        findings and recommendations and identified corrective actions.

    •   Inspection Report on Allegations of Improper Hanford Workers' Compensation
        Payments (INS-L-09-07, August 2009). The inspection found that a contractor at the
        Hanford Site had paid some employees on workers' compensation more than 100 percent
        of their net salaries. Specifically, the contractor paid employees 100 percent of their
        gross salaries when workers' compensation payments were not taxable, which resulted in
        increases in weekly net pay of $200 to $400. However, Department Order 350.1,
        Contractor Human Resource Management Programs, allowed workers to be paid only
        up to 100 percent of their net salaries. At the time of the inspection, management was in
        the process of taking corrective action.

Other Reports

    •   Report on Impact of a Disability Management Program on Employee Productivity in a
        Petrochemical Company (Journal of Occupational and Environmental Medicine, May
        2006). This study documented the results from the implementation of a non-
        occupational disability management program at one of the largest petrochemical
        companies in the United States. The study showed that utilization of procedures such as
        consultation of official disability guidelines, submission of medical certification forms,
        and application of return-to-work programs to non-occupational illnesses and
        injuries resulted in decreased absences by 10.4 to 18.2 percent. It also found that such a
        program resulted in a four to one return on investment and a savings of $2.3 million in
        one year.

    •   Report on The Impact of Provider Choice on Workers' Compensation Costs and
        Outcomes (A Joint Publication of the Workers' Compensation Research Institute and the
        Public Policy Institute of California, November 2005). The purpose of the study was to
        determine if measurable costs and outcomes in workers' compensation cases were
        affected by who selected the health care provider. In comparing cases in which the
        worker selected a new provider with cases in which the employer selected the provider,
        the study found that when the employee selected the provider, return-to-work outcomes




Page 22                                                                         Related Reports
Appendix 3 (continued)

        were poorer, compensation payments were 8 to 15 percent higher, and medical payments
        were 10 to 21 percent higher. The study determined that employers on average are
        better positioned than employees to select good quality, lower cost providers because
        they generally have more experience and superior information about the practices of
        providers.

    •   Report on Workers' Comp Trends Alert, Critical Information for State Decision-Makers
        (The Council of State Governments, February 2004). This report stated that employers
        can reduce the costs of lost days for occupational injuries by 25 to 50 percent by
        implementing a return-to-work program. In addition, return-to-work programs benefit
        employees by reducing skills loss, increasing job retention, and reducing the risk of
        future unemployment.

    •   Report on Workers' Compensation Deductibles and Employers' Costs (Journal of Risk
        and Insurance, June 1999). The purpose of the study was to address the assertion that
        deductibles, as incentives for employers to prevent injuries and control the costs of
        claims, contributed to the downward turn in loss ratios. The study found that large
        deductible plans can reduce high-dollar claim costs by 12 percent in the first year and
        indemnity claims by 39.8 percent in the third year. These costs savings resulted from
        reducing the cost of individual high-dollar claims and by reducing the frequency of
        claims.

    •   Report on Report to Congress: Acquisition Strategy for Defense Base Act Insurance,
        (Department of Defense, Office of the Deputy Under Secretary of Defense, Acquisition
        and Technology, September 2009). The report identified a listing of potential sources of
        savings (expenses eliminated or reduced) including self-insurance with a potential
        overall savings of 17 to 63 percent.
.




Page 23                                                                        Related Reports
Appendix 4

             MANAGEMENT COMMENTS




Page 24                            Management Comments
Appendix 4 (continued)




Page 25                  Management Comments
Appendix 4 (continued)




Page 26                  Management Comments
Appendix 4 (continued)




Page 27                  Management Comments
                                                                    IG Report No. DOE/IG-0867

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report which would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
